<html>
<title> - THE BULLETPROOF VEST PARTNERSHIP GRANT PROGRAM: SUPPORTING LAW ENFORCEMENT OFFICERS WHEN IT MATTERS MOST</title>
<body><pre>[Senate Hearing 113-887]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-887

                          THE BULLETPROOF VEST
                       PARTNERSHIP GRANT PROGRAM:
                       SUPPORTING LAW ENFORCEMENT
                     OFFICERS WHEN IT MATTERS MOST

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2014

                               __________

                          Serial No. J-113-60

                               __________

         Printed for the use of the Committee on the Judiciary







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-399 PDF                WASHINGTON : 2018                 















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                        MAY 14, 2014, 10:09 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
    prepared statement...........................................    35
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    33

                               WITNESSES

Witness List.....................................................    23
Carrizales, Ann M., Officer, City of Stafford Police Department, 
  Stafford, Texas................................................     6
    prepared statement...........................................    30
Zakhary, Yousry A. ``Yost'', Chief of Police, City of Woodway, 
  Texas, and President, International Association of Chiefs of 
  Police, Alexandria,
  Virginia.......................................................     9
    prepared statement...........................................    24

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Canterbury, Chuck, National President, Grand Lodge, Fraternal 
  Order of Police, Washington, DC, statement.....................    38
Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware, ``Bulletproof Vest Partnership,'' Congressional 
  Record, May 7, 2014, pages S2753-S2755, floor statement........    53
Mathis, MiKayla, daughter of Officer Ann Carrizales, and Texas 
  resident, letter...............................................    44
Schirling, Michael E., Chief, Burlington Police Department, 
  Burlington, Vermont, statement.................................    45
United States Government Accountability Office (GAO), David C. 
  Maurer, Director, Homeland Security and Justice Issues, 
  Washington, DC, May 14, 2014, letter and report................    46

 
                          THE BULLETPROOF VEST 
                       PARTNERSHIP GRANT PROGRAM: 
                       SUPPORTING LAW ENFORCEMENT 
                     OFFICERS WHEN IT MATTERS MOST 

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Coons, Blumenthal, and Grassley.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Well, thank you all for being here, and 
this week is, as we know, National Police Week. In fact, as I 
have done for years, I will be down at the west front of the 
Capitol tomorrow when thousands of law enforcement officers 
gather in our Nation's capital to honor the sacrifices of our 
men and women in law enforcement, particularly those who have 
lost their lives in the line of duty.
    Today we have an opportunity to discuss a program that 
helps to protect those who protect us. For over 15 years, the 
Bulletproof Vest Partnership program has been saving lives by 
helping to provide over 1 million vests to over 13,000 local 
law enforcement agencies. It is a critical program that I know 
every single law enforcement officer in the room today 
supports, and I greatly appreciate all of you being here today.
    This is a program that was begun as a bipartisan program by 
myself and former Senator Ben Nighthorse Campbell, Republican 
from Colorado. I mention that parenthetically because it was a 
very proud moment when I was walking down the street in Denver 
a few years ago, and a uniformed police officer walked up to me 
and said, ``Are you Senator Leahy of Vermont?'' And I said, 
``Yes, I am.'' He tapped his chest, and you could hear the 
``thunk, thunk'' of the vest under it. He said, ``Thank you,'' 
and walked off. I said, you know, there are days when I say, 
``Why are we pounding our heads against the wall to get things 
done?'' That day made it worthwhile.
    A few weeks ago I stood on the Senate floor and sought 
unanimous consent to reauthorize the program. I reminded my 
fellow Senators, ``If you claim to support law enforcement, you 
have to stand with them when it matters most.'' I assured them 
that law enforcement cares deeply about reauthorizing this 
program. And seeing all the law enforcement officers in our 
Committee room, that message could not be clearer.
    The law enforcement community has spoken with a single 
voice on this issue. They understand the unfortunate reality 
that life-saving vests can be extremely expensive, especially 
for smaller jurisdictions, and that they can wear out too soon. 
They also understand the invaluable role Congress has played in 
supporting this program and that many officers are alive today 
because we did.
    I am not trying to be partisan, but I would note that every 
single Democratic Senator has agreed to move forward with this 
and will support reauthorization. Many Republicans do, as well. 
But a few Republican Senators believe that the Federal 
Government has no role to play in assisting local law 
enforcement, that somehow that is a mere luxury, and they 
blocked the bill. I could not disagree more with them. We in 
Congress have long supported local law enforcement because we 
have a duty to keep our communities safe.
    The Bulletproof Vest Partnership program has always enjoyed 
bipartisan support from the time Senator Ben Nighthorse 
Campbell and I created it. That was nearly 30 years ago. It was 
so successful that, in the past, it was reauthorized with a 
voice vote. It was the right thing to do--it saved lives--and 
that was enough for both Democrats and Republicans. As I said, 
every single Democrat in the Senate supports this program. And 
I am glad also that many of my Republican friends do, too. But 
some are blocking this effort, and that is inexcusable. They 
have walked away from a tangible and effective way to protect 
the lives of our local law enforcement.
    You cannot say you support law enforcement and then block 
one of the single most important things to save lives of our 
law enforcement officers. And I hope those who oppose 
reauthorization will listen to the testimony today. They will 
find out this program is hardly a luxury. It is necessary to 
save lives, and it is worth our support.
    There are many heroes in the room today, and I look forward 
to the testimony of our witnesses, including Officer Ann 
Carrizales, with whom I just spoke. Her vest stopped a gunman's 
bullet just last fall. And I think, Officer, if you had not 
been wearing it, you would not be testifying here today.
    And there are two additional heroes I want to recognize: 
Sergeant Michael Manley and Corporal Steven Rinehart of the 
Delaware Capitol Police, who Senator Coons knows well. A year 
ago a gunman entered the New Castle County Courthouse and 
opened fire, killing two people, two women. Officers Manley and 
Rinehart immediately engaged with the gunman. They were both 
struck in the chest, but their protective vests, which had been 
purchased through this program, saved their lives. And if they 
had not responded and put their own lives on the line to do it, 
you wonder how many more people would have died, innocent 
civilians would have died in that courtroom.
    Now, last night, thousands of officers gathered for a 
candlelight memorial at the National Law Enforcement Officers 
Memorial. The Memorial contains the names of over 20,000 
officers who have lost their lives in the line of duty. And 
very sadly, last night the names of 286 fallen officers were 
added to its walls. Had it not been for their bulletproof 
vests, Officer Carrizales', Sergeant Manley's, and Corporal 
Rinehart's names would have been added, too.
    Now, you are going to hear many speeches this week paying 
tribute to law enforcement, and we should have those speeches. 
But we need more than speeches. We need some action. We are 
ready to reauthorize the Bulletproof Vest Partnership program 
today, as well as the Blue Alert Act that this Committee has 
reported. I hope that the objections to reauthorizing it will 
stop and we can get it done.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Mr. Chairman, before I read my statement, 
I want to thank you because a year or so ago I asked the 
Government Accountability Office to look into some of what I 
considered mismanagement of the program, and they pointed out 
some things, and I think almost to every one of them you have 
agreed to make changes in the legislation. So I want to thank 
you for that. I am going to go into some detail about that, but 
I do not want you to forget my bottom line, because I have got 
so much to say.
    Chairman Leahy. I appreciate that, and we have worked 
together.
    Senator Grassley. Okay.
    Chairman Leahy. We just want this program to work.
    Senator Grassley. Yes. I appreciate the opportunity during 
National Police Week to highlight a program that has over the 
years saved so many lives. One of those lives is that of one of 
our witnesses today, and the Chairman has already spoken about 
that. So we welcome both our witnesses.
    For all its benefits, in years past this program has been 
administered in a way that did not foster accountability, 
allowed skirting of program requirements, and reduced 
effectiveness.
    In 2012, I asked the Government Accountability Office to 
examine the operation of the program. Following their 
investigation, they recommended that $27 million of undisbursed 
funds from grants whose terms had ended be deobligated. They 
also asked the Justice Department to make sure that grant 
recipients understand that they could not satisfy the 50-
percent match requirement of the Bulletproof Vest Partnership 
program--the match is what makes it a partnership, by the way--
by using other Federal funds as the basis for the match.
    The Government Accountability Office also proposed that the 
Department of Justice do a better job to ensure that States and 
local governments that used Byrne/JAG funds for bulletproof 
vests adhere to the requirements of the BVP grant program.
    The Government Accountability Office also made 
recommendations concerning the Department of Justice enforcing 
compliance with the document retention requirements and the 
tracking of grant recipients' use of the funds for stab-
resistant vests.
    Today the Government Accountability Office has followed up 
on its earlier investigation and has concluded that the 
Department of Justice has, in fact, implemented all of its 
recommendations. The Government Accountability Office sent me a 
letter outlining that compliance, which it has provided to you, 
Mr. Chairman, as well. I ask consent that that be put in the 
record.
    Chairman Leahy. Without objection, so ordered.
    [The letter appears as a submission for the record.]
    Senator Grassley. The Government Accountability Office has 
found that DOJ has deobligated $31 million in undisbursed funds 
from grant awards whose terms have ended. Some of these 
undisbursed funds dated back to the year 2002. Additionally, 
the Department of Justice has implemented a process to review 
all undisbursed bulletproof vest funds. As a result, the 
Department of Justice has deobligated an additional $7.8 
million from more than 3,000 grants whose award terms have 
ended. And the new process will ensure that the problem of 
undisbursed funds does not reemerge. Deobligation promotes 
accountability in the use of grant funds and is vital to 
effective grant management. I am glad to see that this has 
finally occurred.
    The Government Accountability Office also has concluded 
that the Department of Justice now better publicizes the 
requirement that grantees retain documentation of their vest 
purchases. The grant application now requires applicants to 
certify their acknowledgement and acceptance of the 
requirement.
    The Department of Justice has also adopted the Government 
Accountability Office's recommendations concerning tracking 
funds for stab-resistant vests.
    More importantly, the Department agreed with GAO's advice 
that it ensure that JAG recipients who use those funds for the 
purchase of body armor comply with crucial--in fact, life-
saving--requirements of the grant program. States can use JAG 
funds as well as BVP grant funds to purchase body armor. 
Previously, JAG did not require that grantees only purchase 
vests that comply with the standards of effectiveness that the 
National Institutes of Justice have established.
    Nor did JAG require that entities that used JAG funds for 
bulletproof vests have policies mandating that officers 
actually wear them. Now, the Government Accountability Office 
reports that the agency has established requirements that JAG 
recipients certify that they have written mandatory use 
policies and that the body armor purchased complies with the 
standards.
    The last of the GAO's recommendations was that the Bureau 
of Justice Assistance had not documented its procedures to 
ensure that JAG grantees complied with the requirements not to 
use JAG funds as the basis to satisfy the match requirements of 
any BVP grant funds that they might also receive. The GAO has 
found that the Bureau of Justice Assistance has issued new 
guidance for staff to improve compliance with the requirements 
that JAG funds not be misused as matching funds.
    I consider the process of GAO's investigating, making sound 
recommendations, and the Department's adopting new practices to 
be a textbook example of how oversight is supposed to work to 
benefit the taxpayer and, in this case, police officers as 
well.
    I do encourage the National Institutes of Justice to issue 
soon the guidance and the new standards that it led GAO in 2012 
to believe would have been forthcoming by now.
    Following up on GAO's initial recommendations, I requested, 
when this grant program was authorized, that the legislation 
incorporate provisions that reflected the benefits of 
oversight.
    As a result, legislation to reauthorize this program now 
includes provisions that make all previously appropriated funds 
not expended by the end of Fiscal Year 2015 be returned to the 
Treasury; that recipients of grants not use funds from another 
grant program to form the basis for satisfying the match 
requirement; that grantees adopt policies requiring patrol 
officers to wear bulletproof vests; and that authorization 
levels for the program be cut.
    So as I have said before, I appreciate the Chairman's 
backing for these efforts, and I am pleased to support 
legislation. And I ought to also offer my help to the Chairman 
for Senators that he wants to point out to me that are standing 
in the way of this bill coming up. I would be glad to talk to 
them. But, also, I think we need to remember that one of the 
reasons the bill has not been brought up is because the 
Majority Leader wants to do it by unanimous consent, and I 
think that we can probably have a situation where we can have a 
very short period of debate and pass this bill, and we need to 
get the Majority Leader willing to bring it up and see if I can 
help get the time that is limited so he will be able to move 
ahead with it.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Leahy. I appreciate that. Of course, the reason 
they want to bring it up by unanimous consent is that for 30 
years that is the way we have always done it, both when the 
Republicans were in charge and when Democrats were in charge. 
Of course, we would have been happy to have had time for 
debate. Senator Coburn of Oklahoma objected.
    Senator Grassley. But there are some of us that believe the 
Senate ought to be the deliberative body it is supposed to be, 
and I include in that that we should not be spending all day on 
a bill like this. But there should be some debate on it.
    Chairman Leahy. I would be happy to, if they would like, to 
stay here tonight and have several hours of debate. I will give 
up my plans for this evening if we can pass it. So I make that 
offer, and if your side wishes to, I will skip plans that my 
wife and I had for this evening. I think I would much--and I 
think she would agree that it would be perfectly okay to stay 
here if we can pass this bill.
    But let us go to Officer Ann Carrizales of the Stafford, 
Texas, Police Department who was shot twice during a routine 
traffic stop last year. I will let her talk about what 
happened, but she is a former Marine, as is my son and Senator 
Blumenthal. She has had a distinguished career as a police 
officer. I am glad she is here to tell the story.
    I am glad you are alive, first off, but I am glad you are 
here to tell the story. Please go ahead, Officer.

STATEMENT OF OFFICER ANN M. CARRIZALES, CITY OF STAFFORD POLICE 
                  DEPARTMENT, STAFFORD, TEXAS

    Officer Carrizales. Thank you. Good morning, Chairman 
Leahy, Ranking Member Grassley, and the Committee Members. My 
name is Officer Ann Marie Carrizales, and I am a police officer 
for the city of Stafford, in Stafford, Texas, Fort Bend County. 
would like to thank you in advance for your time as I share 
with you the testimony of one of the most life-altering moments 
of my life.
    On October 26, 2013, just before 4 a.m., I initiated the 
traffic stop that almost became my very last. Every fiber of my 
memory can recall each detail of what was to follow. I am here 
this morning to share details with you of that story in the 
hopes of illustrating to all of you the dangers that all of law 
enforcement officers face on a daily basis.
    In the moments leading up to the incident, I felt the night 
become somewhat darker, and the gentle breeze in the air seemed 
to retreat in the presence of the evil that was lurking. The 
natural peace that I sometimes feel at that hour of the night, 
knowing that the citizens of Stafford, Texas, are sleeping 
safely in their homes, was no longer, and I could sense the 
evil, like a snake in the grass waiting, just looking for the 
right moment to catch me unaware.
    Only I was not unaware, and more importantly, I was not 
unprepared. I was wearing my bulletproof vest that my agency 
had custom-fit for my body and issued to me upon my employment. 
Although my vest snugly hugged my body, I could still feel the 
sweat beads trickle down my chest and the back of my neck as 
the hot breath of evil filled the air around me. One car. Three 
occupants. Our eyes locked. I knew. They knew. I think we knew.
    The first shot struck my left cheekbone. It traveled 
through my cheek, and it exited at my lower jaw line. As the 
bullet exited, it obliterated my left earlobe, leaving only 
shreds of tissue dangling where there was once an earlobe. I 
remember the muzzle flash, looking directly at the weapon and 
taking a mental note of its caliber. And then there were his 
eyes. I will never forget those eyes.
    The metal burned immensely, and I could taste both metal 
and blood. Instinctively I raised my left forearm to cover my 
face in a defensive technique from my many years of competitive 
boxing, and I simultaneously began to turn to my right to find 
cover while drawing my firearm. A second shot rang out. I felt 
it strike the left side of my breast, and I immediately 
thought, ``Oh, God, vest did not catch that one.''
    I could feel the immense pain and burning in my chest 
followed by the warmth of my own blood as it ran down the left 
side of my rib cage. The second shot knocked me back three 
steps, and I recall counting the steps in my mind. In those 
moments, my thought process was extremely clear. I gave myself 
a pep talk in between those three steps back. I said, ``You are 
in a gun battle here, girl. Any day you want to start 
shooting.'' It felt like several seconds in between me getting 
shot and returning fire, but, realistically, it was immediate. 
The suspect vehicle did what most suspect vehicles do: they 
fled. I began pursuit, and a few days later the dash cam video 
of my pursuit was released for the world to see.
    Relaying the information to dispatch that I had been shot 
was extremely hard for me. I knew what it would do to my 
partners, to include my dispatchers. One of their own was shot 
in the face and chest, and I knew they would do anything in the 
world to save me. I could hear panic in the voices of my 
partners as they all tried to get to me. ``Not again,'' I 
thought to myself, recalling that I had just been involved in a 
shooting the October prior. One year almost to the day, 
lightning struck me twice, and I was determined that I would 
not give up or give in, even as the suspects shot at me from 
that moving vehicle. It was not an option for me to quit. I 
would not allow these individuals to hurt anyone else, even if 
it cost me my life to protect everyone else's. Ultimately, my 
pursuit ended in Houston, in Harris County, and today all three 
suspects are in custody.
    When the dust cleared, I was left with two bullet holes in 
my face--from the entry and the exit--a severely damaged left 
earlobe, a large bullet hole to my left breast. The hole was 
approximately 2 inches deep and about as round as a quarter. 
The bullet? Well, that was embedded in the bulletproof vest, 
exactly where it needed to be. My vest, issued to me by my 
agency, Stafford Police Department, custom made and cut to fit 
my body, did its job for me that night. That hot, heavy, 
uncomfortable piece of equipment that can sometimes carry an 
odor that can singe your nose hairs saved my life.
    I patrol the night streets in the city of Stafford, Texas, 
and we have approximately 49 sworn officers there policing a 
city with a daytime/commercial population of about 100,000 
people. At night it is about 1,800 to 2,000. I do not work for 
a large agency like Houston Police Department or Dallas. It is 
a small one. I work for a small department, and I have had two 
officer-involved shootings in 1 year. It can happen anytime, 
anywhere, not just in the larger cities.
    I am fortunate enough to work for an agency that provides 
the necessary equipment, such as a bulletproof vest, to offer 
me the protection while I am out on the front lines fighting 
this war against crime, an agency that has in the past used 
Government funding to provide vests to their officers from this 
bill.
    Even with the decline in funding, Stafford PD has continued 
to provide their officers with vests; whereas, other agencies 
with less of a budget to work with are forced to choose between 
what is more important to officer safety and how much money to 
put into ensuring their officers' safety. In some cases, women 
are forced to wear men's vests which do not fit properly and, 
therefore, cannot function properly and provide adequate 
protection.
    We expect our officers to run toward the danger when 
everyone else is running away. We expect our officers to push 
through their fear--and, yes, we do get scared--and protect 
those who cannot protect themselves. We expect our officers to 
sacrifice time away from their families to uphold the law and 
keep our streets safe. We give them a gun and a badge, and we 
tell them to aggressively seek out the evil doers. Then we tell 
them that we do not have the money to purchase the armor that 
they will need to help keep them alive, but they go and they 
fight the war anyway. They do, every day, oftentimes for less 
money than one might think. They do it because it is a calling. 
They do it because it is in their blood to be protectors. They 
are me and all of us in this room wearing a uniform law 
enforcement--all our uniformed law enforcement in this room.
    There are a lot of these people, 286 of these officers 
whose were added to the memorial this year because they gave 
the ultimate sacrifice in the line of duty--the men and women 
of law enforcement, a group of our Nation's protectors.
    I submit to you, Chairman Leahy, Ranking Member Grassley, 
and Members of the Committee, to please help us protect these 
protectors.
    I would not be sitting here today had I not been wearing a 
properly fitting bulletproof vest. My 10-year-old daughter, 
MiKayla, and my 19-year-old son, Joseph, would not have their 
mother had I not been issued this vest by my agency. My 
husband, Christopher, he would be a widower at 39, forced to 
raise two children on his own.
    That vest saved my life when it mattered most. It did its 
job, just as I do my job every night that I am on those streets 
risking my life. I now humbly ask you to do your job and work 
to reinstate the Bulletproof Vest Partnership grant program. 
Now is the time when it matters the most.
    The incident shook my family to its very core, and we are 
still trying to put the pieces back together. I have been 
fortunate that my daughter's school, Oyster Creek Elementary, 
in Sugarland, Texas, has been such a great source of support 
for my daughter as she struggled to process this traumatic 
event. I have attached and will submit to you letters from the 
4th and 5th grade students of Oyster Creek Elementary School. 
It is about 200 letters or more. And these letters are from the 
students at that school in the 4th and 5th grade, asking and 
begging for your assistance in helping police officers across 
our Nation obtain the bulletproof vests that they need for 
survival. They have rallied behind me and my family ever since 
this incident, and I am deeply touched by their passion to 
protect our police officers. I am so proud and honored to 
submit these letters to you with my testimony. Thank you again 
for your time.
    [The prepared statement of Officer Carrizales appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much. You know, Officer, as 
the author of the original bulletproof vest bill, you know, 
when you speak to me, you are preaching to the converted.
    Officer Carrizales. Yes, sir.
    Chairman Leahy. Is that the vest you wore?
    Officer Carrizales. No, sir, this is not the vest that I 
had on. The vest that I had on is currently in evidence.
    Chairman Leahy. Thank you.
    Next we will hear--and then we will go for questions--from 
Yousry Zakhary. He is the Chief of Woodway, Texas, Police 
Department. But he is also the president of the International 
Association of Chiefs of Police, an association this Committee 
has worked with a great deal. He has also been a law 
enforcement officer for 35 years. Is that correct, Chief?
    Chief Zakhary. That is correct.
    Chairman Leahy. So you know firsthand how this program 
saves lives. Let me go to you, and then we will go to 
questions.
    Chief Zakhary. Can I proceed, sir?
    Chairman Leahy. Yes, please.

      STATEMENT OF CHIEF YOUSRY A. ``YOST'' ZAKHARY, CHIEF
       OF POLICE, CITY OF WOODWAY, TEXAS, AND PRESIDENT,
         INTERNATIONAL ASSOCIATION OF CHIEFS OF POLICE,
                      ALEXANDRIA, VIRGINIA

    Chief Zakhary. Thank you. Chairman Leahy, Ranking Member 
Grassley, and Members of the Committee, good morning, and thank 
you for inviting me to testify regarding the Bulletproof Vest 
Partnership program, the one we know as BVP. As president of 
the International Association of Chiefs of Police, IACP, and on 
behalf of our over 22,000 members, I would like to thank the 
Committee for the support it has demonstrated over the years 
for the law enforcement officers in the field.
    I began my career as a law enforcement officer with the 
city of Woodway, Texas, in 1979. I am still there today and 
currently serve as chief and director of public safety. One of 
my main duties as chief is to make sure my officers have the 
proper training and equipment they need to do their job safely 
so they can return home to their loved ones at the end of their 
shift.
    Body armor or bulletproof vests are critically important to 
a police officer's survival and well-being. There is no denying 
it. Vests do save lives, so it is imperative that all law 
enforcement officers are outfitted with properly fitted 
bulletproof vests. The Bulletproof Vest Partnership program is 
a critical resource that enables State and local law 
enforcement jurisdictions to purchase these life-saving vests. 
Since its enactment, this program has enabled over 13,000 State 
and local law enforcement agencies to purchase over 1 million 
vests.
    In Fiscal Year 2012, protective vests were directly 
attributable to saving the lives of at least 33 law enforcement 
and corrections officers in 20 different States. At least 14 of 
those life-saving vests had been purchased with BVP funds. In 
fact, thanks to BVP, my department--Woodway, Texas--has been 
able to purchase 72 vests, with matching funds, since 2000. The 
BVP program has enabled us to fully outfit and custom-fit every 
officer in my department with life-saving body armor.
    It is not just my responsibility as chief and as a law 
enforcement executive to ensure that the officers of my 
department each have a bulletproof vest. Officer safety is an 
all-hands-on task and also the responsibility of our 
Government, as well as the Government leaders, to ensure the 
safety and well-being of its citizens and the lives of the 
officers who have dedicated their lives to protecting the 
communities they serve.
    Sadly, and perhaps surprisingly to many, a number of 
American law enforcement agencies and officers do not have body 
armor available to them on a routine basis. They simply cannot 
afford it. The BVP grant program is a critical component.
    To give you a sense of how important this program is to law 
enforcement, in Fiscal Year 2013 the BVP program received a 
total of 4,580 applications from small jurisdictions alone, 
which are characterized as having a population of 100,000 or 
under. Funding small jurisdictions under the BVP grant program 
is a program priority requirement. This meant that for Fiscal 
Year 2013 none of the large jurisdictions applicants were 
awarded funding. In addition to not having enough funds in 
Fiscal Year 2013 to provide awards to any of the large 
jurisdiction applicants, there were insufficient funds to 
provide even the maximum 50 percent to all small jurisdiction 
applicants. Small jurisdictions that applied received only 
37.10 percent of the amount they requested on their 
applications.
    Officer safety and wellness has always been the IACP's top 
priority. It is the position of the organization that no injury 
to or death of a law enforcement professional is acceptable. A 
key element to officer safety is the use of bulletproof vests. 
That is why the IACP has developed a model policy for providing 
law enforcement officers with guidelines for the proper use, 
care, and wear of body armor. In addition, the IACP has adopted 
a resolution for mandatory vest wear. The resolution calls for 
all law enforcement executives to immediately develop and 
implement mandatory body wear for their departments.
    In addition, the IACP partnered with DuPont in 1987 to 
create the IACP/DuPont Kevlar Survivors' Club. The mission of 
the club is to reduce death and disability by encouraging 
increased wearing of body armor. The Survivors' Club also 
recognizes and honors those deserving individuals who, as a 
result of wearing personal body armor, have survived a life-
threatening or life-disabling incident.
    Since its inception, we know there have been 3,180 
verified, documented saves by the Survivors' Club thanks to 
body armor. I do not have enough time to detail every incident, 
but I would like to call a few to your attention.
    Just this past, in Killeen, Texas, a town about 60 miles 
from Woodway, Texas, two officers serving a narcotics search 
warrant came under severe fire. The two officers hit were saved 
from gunfire and spared life injuries by wearing their vests.
    Vest purchases with BVP funds have also saved lives from 
incidents in Prescott, Arizona; southern New York; North 
Charleston, South Carolina; Burbank, Illinois; Somerville, 
Alabama; Sacramento, California; and I brought a vest that I 
will show you at the end from Graham, Texas, where a vest saved 
an officer's life.
    It is important to note that these vests do not just 
protect against assaults with firearms. In Minneapolis, 
Minnesota, an officer was stabbed and saved by his vest. In 
Iron County, Utah, and Des Moines, Iowa, police officers were 
both saved from vehicular crashes because of their vests.
    I think this helps demonstrate how vests save the lives of 
officers all across this great country. These officers and the 
thousands of officers like them were able to return home to 
their family, friends, and loved ones thanks to the live-saving 
bulletproof vests they wore.
    What many people do not realize is a broad-reaching effect 
when an officer is killed or even wounded. Not only does the 
officer suffer, but so does the officer's family, friends, and 
police colleagues, as I heard from my colleague just a few 
minutes ago. The death of a law enforcement officer has a 
shocking impact upon the agency and the community as a whole. 
The unique effects can range from reduced productivity and low 
morale among officers to public fearfulness and sorrow. There 
is also the potential for strained relations between the 
community and the law enforcement agency.
    In addition to the human costs, there are great financial 
and operational costs to consider. Currently, the U.S. 
Department of Justice, under the Bureau of Justice Assistance, 
Public Safety Officers Benefits Program, provides $323,035 in 
death and education benefits to survivors of fallen officers. 
The average cost of a bulletproof vest is between $800 to 
$1,000. That roughly would translate to at least 323 vests if 
could just save one life with a vest if more departments just 
had the assistance.
    The loss of one officer in an agency can have a crippling 
effect upon manpower and the agency's ability to deliver 
services, the devastating blow that is inevitably on his fellow 
officers, friends, and colleagues.
    The death or injury of an officer creates a wide variety of 
unanticipated and very costly expenditures for the agency. 
Possible expenditures include medical bills, funeral expenses, 
workers' compensation and death benefit payments, increased 
insurance premiums, sick leave, retirement system costs, legal 
fees, civil judgments, replacement and retraining expenses, and 
overtime pay. Viewed solely in a financial light, the effects 
of an officer's death can have significant consequences.
    As a father of twin girls, a husband, a police chief, and 
president of the IACP, I urge you to please support the 
reauthorization of the BVP program as soon as possible.
    Thank you for the opportunity to appear before you today to 
discuss the importance of the Bulletproof Vest grant program, 
and at this time I would be happy to answer any questions, or 
if you would like, I can certainly hold this vest up and show 
you what it did.
    [The prepared statement of Chief Zakhary appears as a 
submission for the record.]
    Chairman Leahy. We are going to get to the vest in just a 
moment, but thank you, Chief.
    In my years in law enforcement, a different aspect of it, I 
was only shot at once, and fortunately he was a really lousy 
shot, because I was not wearing anything protective and I was 
not smart enough to do what Officer Carrizales did, get into a 
crouch. I just stood and swore at the guy, and he ran away. I 
wish I could remember what it was I said.
    I could not help but think, I am currently the President 
Pro Tempore of the Senate, and that is one of the Senate 
offices that come with a security detail, and I was looking at 
a couple of our security officers listening very intently to 
what you are saying. Fortunately, the Capitol Police provide 
these vests. I wish everybody did. In fact, I will be 
submitting a letter from the Chief of Police of Burlington, 
Vermont, Michael Schirling. That is our largest police 
department in Vermont, which is a very small State, as you 
know, speaking of the value of these.
    [The letter appears as a submission for the record.]
    Chairman Leahy. Officer Carrizales, you testified your life 
was saved because you had a vest that was uniquely fitted for 
your body. Some female officers in other jurisdictions are 
forced to wear men's vests which, for the obvious reasons, do 
not fit properly. One improvement in our bill is to give a 
grant preference to agencies that provide uniquely fitted vests 
for female officers and others.
    You have one of those vests there, do you not, on the 
table?
    Officer Carrizales. Yes, Chairman, I do.
    Chairman Leahy. Could you hold it up, please?
    Officer Carrizales. This is a very small--small--woman's 
vest, obviously not one that I could fit, but it does show that 
it is custom made. It has got the breast plates in the front. 
Obviously women's bodies are shaped differently. So whoever 
wore this vest, this vest was clearly tailored to that female 
officer's body.
    The curves tend to run deeper under the armpit area to 
compensate for the structure of the woman's body and the 
contours of a woman's body, and they usually ride slightly 
higher up in the front, depending upon the build of the woman. 
But, yes, it is designed specific to each woman.
    Chairman Leahy. Everybody is built differently.
    Officer Carrizales. Yes.
    Chairman Leahy. And you do require that. If you really want 
it to be protective, if you really want an officer to wear it, 
it has got to be something that fits. That's pretty basic, 
right?
    Officer Carrizales. Well, that is correct. As with 
anything, we cannot use something to its optimal level if it is 
not--if it does not fit or work properly. And if a vest is not 
fitted to your body, it is not going to protect you where it 
needs to protect you, and it is not going to work properly. It 
is pretty much counterproductive. A woman wearing a man's vest, 
it is flat, so it tends to slide up and ride up, and the collar 
will kind of cut up against your collarbone.
    Well, I have seen female officers grabbed because it is 
exposed. They are grabbed from that area because it almost 
serves as a weapon against them. And that thing is strapped 
onto your body, so it is much like your hair. Once somebody 
grabs hold of that area, they have got you.
    Chairman Leahy. Well, your hair. I do not really have that 
problem.
    [Laughter.]
    Chairman Leahy. Chief Zakhary----
    Senator Grassley. Could I follow on?
    Chairman Leahy. Sure.
    Senator Grassley. Because I was going to ask a question 
along that line. You can take the time out of my----
    Chairman Leahy. No, no. Go ahead.
    Senator Grassley. Along the lines of what he was asking 
about, I was going to ask you, are there any other changes 
needed to make sure that body armor is worn equally by male and 
female officers and is equally effective for both male or 
female officers? Or do you think that has been taken care of 
now?
    Officer Carrizales. I believe that I am understanding your 
question are there any more changes that I could suggest be 
made for vests for both male and female to make them more 
productive?
    Senator Grassley. Yes.
    Officer Carrizales. Well, they could stand to be a bit 
lighter, a bit thinner, with the same protection. And I know 
for a fact that the company who provides the vests for our 
agency, which is PointBlank, has done that. Vests, from what I 
understand, they make improvements, you know, every year on 
vests. So a lighter vest, a thinner vest that would provide the 
same if not more protection, that is obviously going to be a 
winner for every officer that has to wear one.
    Senator Grassley. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    It has been my experience--and correct me if I am wrong--
over the years since Senator Campbell and I started this 
program, we have seen improvements in the vests. Is that 
correct?
    Officer Carrizales. Yes.
    Chairman Leahy. Thank you. I remember the vest that police 
officers had when I was a prosecutor. They were almost 
unwearable, and that serves no purpose.
    I think, Chief, you talked about these stories of police 
officers' lives that have been saved, and there are thousands 
more. I know that. We had a terrible shooting here in 
Washington, right near the Capitol, last fall at the Navy Yard. 
There was a brutal firefight in that. A Metropolitan Police 
Department officer was shot in the chest. His bulletproof vest 
saved his life. He was able to return fire and stop a gunman 
who was hell-bent on killing as many people as he could.
    Now, you have a vest there, I understand, from the Graham, 
Texas, police officer----
    Chief Zakhary. Yes, sir.
    Chairman Leahy. Would you tell about what happened there?
    Chief Zakhary. Yes, sir. May I stand up?
    Chairman Leahy. Please do.
    Chief Zakhary. Last week, I was in a training session in 
Waco, Texas, and I was talking to my colleagues. There were 
about 90 chiefs at the meeting, and I was just talking to them 
about how important this vest program was. And the chief, Tony 
Winder, came to me, and he says, ``I would have lost an 
officer. Officer Putman would have been killed.'' I asked him 
if the case had been adjudicated, and he said, yes, it had 
been. And I asked him, ``Is there any chance I can have that 
vest to demonstrate what happens?''
    This vest is what Officer Putman was wearing in 2002. As 
you can see, he had it on similar to me right here. You see 
where that bullet hit? I am not a doctor, I do not play God, 
but I am pretty certain that would have been a fatal shot right 
there. That bullet ricocheted off of there. The vest would have 
been like this, what is captured right here. Yes, he did suffer 
some cuts, and, yes, he did have some injuries. This is what 
the back of his vest looked like. But that officer is alive. 
That officer is back on the streets today, and he is doing 
well. Bulletproof vests.
    Chairman Leahy. I do not think it is playing God, Chief, 
and none of us do, and I appreciate that. But I think we both 
know enough about firearms, we both know enough about 
ballistics, and we both know what would have happened if that 
officer had not had that vest.
    Chief Zakhary. Yes, sir, and I want to reiterate what you 
said. In 1979, the bulletproof vest that I was given had a 
steel plate in it. So to address Mr. Grassley's comment, there 
has been--NIJ has worked very closely with IACP. We have made 
tremendous improvements in the vests, and custom-fit vests do 
work.
    Chairman Leahy. Well, I do not want to be overly parochial, 
but my State has 625,000 people. Chief Schirling, whose 
testimony I am submitted for the record, is chief of our 
largest police department. That is in a city of 38,000. And our 
police departments go down in size from that, then we have the 
State Police, which covers the State. He said if this program 
is not reauthorized, there are a lot of law enforcement 
agencies that will not be able to afford protective vests.
    You are both from Texas. We think of Texas as a large 
State, but you have got a lot of small jurisdictions. Would you 
agree with Chief Schirling that if we do not reauthorize this, 
there are departments that will not be able to afford the 
protective vests?
    Officer Carrizales. Absolutely.
    Chief Zakhary. Yes, sir, and I checked. Texas has 
approximately 75,000 officers, and I am a firm believer that 
many, many, many departments will go totally unprotected if 
this is not reauthorized, and we will lose officers this year 
as a result of non-authorization.
    Chairman Leahy. We have lost too many.
    Chief Zakhary. Yes, sir.
    Officer Carrizales. I know personally I have worked with 
officers, even in the area that I do work, that their agency 
did not provide them with a vest due to funding. I know that 
has been rectified since I last spoke to the officer. I made a 
phone call just to kind of get the status, and they were all 
fitted and issued as of, I think he said, January or February. 
But that was not the case for at least 2 years while he worked 
there. He worked without a vest.
    Chairman Leahy. Thank you.
    Senator Grassley.
    Senator Grassley. I have already asked one of my questions. 
I am going to refer to FBI Uniform Crime Reports from 2012. 
They show a drop of one-third in the number of law enforcement 
officers who were feloniously killed compared to the previous 
year. It says that only three of these officers died from torso 
wounds while wearing bulletproof vests. So it seems to me that 
we are succeeding in protecting officers from torso wounds.
    Today most police officers who are shot and killed are a 
result of head and neck wounds. So my question to both of you 
is: Do you have any recommendations on how Congress might now 
address, if it is possible to address, the fact that many more 
officers die from head and neck wounds than from torso wounds 
that the vest protects? Or is that--you may consider that a 
naive question, but is there anything that you think we can do 
along those lines?
    Chief Zakhary. I will give it a shot. Then I will turn it 
over.
    You know, there is a balance. Everything we do every day is 
a calculated risk. Many of those situations are in SWAT entry 
operations, and in those operations we do provide the officers 
with heavier vests, which we have also been able to purchase 
through the BVP program. We provide them with helmets. We 
provide them with face shields. What we do not want to do--and 
I have met with NIJ on this--we do not want to create robocops 
where they cannot move.
    So I think it is a matter of calculated risk. We do the 
best we can to reduce the area of impact that they can shoot 
at.
    Officer Carrizales. I would agree with the chief. This job, 
when we swear and take this oath and put that badge on, we do 
realize the risk that we are taking. There are some things that 
we can do to prevent dying, and that is, wear a vest.
    What we do not want to do is we do not want to take away 
from the officer's ability to execute his or her duties at the 
optimal level. I do not think wearing something around our head 
is going to do anything but hinder what we can see 
peripherally, if I am saying that correctly.
    So, no, I do not have any suggestions on what we can do for 
protection of head, protection of legs, feet, hands. No, I 
think that at this point the most important thing for us to do 
is to focus on the vests.
    Senator Grassley. Chief Zakhary, I would like to ask you a 
question not dealing with vests but because you are here, and I 
had a chance to read a couple statements on the website of your 
international organization. I would like to ask you: Why does 
the International Association of Chiefs of Police support 
mandatory minimum sentencing for drug offenders? If you would 
feel comfortable answering that.
    Chief Zakhary. Well, I mean, I--why do we support it?
    Senator Grassley. Yes.
    Chief Zakhary. Yes, there are a couple of reasons. The 
first one is it is a great investigative tool, and anything 
that we would do to lessen that really needs to be carefully 
evaluated and thought out from both sides and kind of look at 
the whole picture, not just an isolated snapshot at it. But the 
sentences really give the prosecutors an opportunity to really 
get to the next bigger fish, the next bigger user, the next 
bigger transporter. That is why we support that. I am very 
carefully thinking through this in the Reduction of Sentencing 
Act, sir.
    I had two officers injured Friday night that both those 
guys would have been eligible as a result of a fight--both of 
them would have been eligible for reduced sentences had that 
been in place.
    Senator Grassley [presiding]. The Chairman asked if I would 
recognize Senator Coons. I am going to yield back my time. I do 
not think I will use it. Go ahead.
    Senator Coons. Thank you very much. I would like to thank 
Chairman Leahy and Senator Grassley for holding this important 
hearing today.
    Last week, as we have all heard, Chairman Leahy went to the 
Senate floor and asked unanimous consent for the Senate to take 
up and pass this important bipartisan reauthorization bill to 
sustain this critical Federal, State, local partnership, the 
Bulletproof Vest Partnership, and to support the men and women 
of law enforcement who keep our communities safe across the 
country.
    I was deeply upset, disappointed, and angered that one of 
my colleagues continues to block consideration of this bill on 
the floor, and I voiced my disagreement with his arguments, his 
suggestions that somehow the Constitution prevents us from 
having a Federal-State partnership and somehow our budget and 
other reasons restrain us from having this cost-effective, 
proven, demonstrably valuable partnership.
    I would like to enter my full floor remarks into the 
hearing record, hopefully without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Coons. The bottom line here is that this bill must 
pass, and we should not rest in our efforts to do what is right 
by public safety officers all over this country while they 
continue to risk their lives. In the middle of Police Week, 
while we mourn the loss of 268 officers who dies and whose 
names have been added to the Police Memorial. Between last 
night's candlelight vigil and tomorrow's wreath-laying 
ceremony, we have an opportunity here to once again in a 
bipartisan way commit ourselves to a positive and hopeful 
effort, reaffirming the Federal commitment to State and local 
law enforcement and to officer safety. This is not only 
constitutionally permissible, in my view, but a solemn 
obligation.
    For Delaware, the Bulletproof Vest Partnership and its 
benefits are real, tangible, and personal. Chief Horsman of the 
Capitol Police is with us here today, along with Sergeant Mike 
Manley and Corporal Steve Rinehart, known to me, who are here 
because of the grace of God and the Bulletproof Vest 
Partnership. The two vests that they were wearing provided 
through this program when they confronted an active shooter in 
the Wilmington Courthouse in February 2013 literally saved 
their lives. All of Delaware is grateful for your service and 
grateful to God for your safety and your continued ability to 
contribute to our communities. Thank you.
    To Officer Carrizales, thank you so much for your inspiring 
and moving testimony, for the letters from your daughter's 
class, for the support of your husband, and for the way that 
you helped us understand in a very personal way yet again how 
vital and how important these bulletproof vests are for keeping 
law enforcement officers safe all over this country. Thank you 
for your service, thank you for your heroism, and thank you for 
your particularly compelling and focused testimony today.
    Some of my colleagues, as you have heard, have questioned 
whether there ought to be any Federal partnership in supporting 
local law enforcement. I happen to be from the small State of 
Delaware where crime crosses city and county and State lines 
routinely. You are from the somewhat larger State of Texas. 
From your perspective--yes, a country unto itself, I know.
    [Laughter.]
    Senator Coons. From your perspective, do you think these 
vests contribute to the national interest in public safety? Are 
there things you have seen that have caused you to believe that 
you have confronted criminal activity across this State or even 
international borders in your public service?
    Officer Carrizales. Yes, absolutely. I think that--and I 
want to make sure that I understand your question. You are 
asking me if the things that I have seen personally in the line 
of duty would have an impact on how the citizens perceive----
    Senator Coons. Do you see some value in a Federal role in 
supporting State and local law enforcement given how criminals 
do not stop when they hit the border between the city where you 
patrol and the county around it or the city and the county and 
the State around it or the city, county, State, and, frankly, 
even countries around it?
    Officer Carrizales. Well, yes, I absolutely do see that, 
that there is value there. Two of the three suspects in my case 
had been deported back to their country, their native country, 
and come back into the country illegally I think at least once 
before. So there is a need, there is definitely a need to have 
involvement there.
    I do not know exactly--I am not in the know on the 
objections of the person that you are referring to, but I would 
submit to that person, I hope that you never have to call us to 
save your life and we do not have a vest on and someone kills 
us because then we cannot help you. And people willfully--and 
they will leave the country. It happens all the time. It was 
just by good police work and the support of Crime Stoppers in 
this case we were able to take all of these three suspects into 
custody before that could happen.
    Senator Coons. Senator Coburn's comments on the floor in 
response to Senator Leahy's requests for us to proceed to this 
bill literally touched on his view that the Constitution bars 
us somehow from a Federal, State, local partnership. He also 
made other comments about costs and about the appropriateness 
in a deficit of our contributing.
    You referenced the fact that many local agencies would not 
be providing bulletproof vests otherwise, that they would 
simply be leaving it up to their officers to purchase them.
    Officer Carrizales. Correct.
    Senator Coons. One of the key Federal roles in this program 
is that the National Institutes of Justice test and certify 
which vests are appropriate, are current, are fitted 
appropriately, use the latest technology. Does it give you any 
additional comfort as a law enforcement officer knowing not 
only that the vest you were wearing had been paid for jointly 
by your agency and the Federal Government but also that it had 
been certified to be capable of protecting you and was 
appropriately fitted?
    Officer Carrizales. Yes, absolutely it gives me comfort to 
know that any vest purchased with funds from this grant, if 
this bill is passed, any of these vests--that we are not just 
getting secondhand vests because we are helping you buy them. 
That is not the impression that I am getting. And sometimes 
that can be the case when officers are faced to just kind of 
get what they get and that is it. We do not get paid a lot of 
money. Most officers cannot afford to buy their own custom 
vests. So we have to rely on funds or what we get from our 
agencies.
    It gives me great comfort to know that not only would this 
bill provide those funds, but they would also make sure that we 
were wearing vests that were tested and tried and proven to 
save our life when it mattered most, yes.
    Senator Coons. And as I look at the list of the agencies in 
Delaware that have been able to provide current custom-fitted 
vests for their officers, it runs from our one mid-sized city 
to our many small towns and our many rural areas. And I think 
your own experience reminds us it is important that we continue 
this Federal, State, local partnership.
    One last question, if I might, Mr. Chair. To Chief Zakhary, 
thank you so much for your leadership and for what the IACP 
does to continue nationally a commitment to excellence in 
policing. I would welcome your comments on the IACP/DuPont 
Kevlar Survivors' Club. This partnership has documented over 
3,100 officers' lives who have been saved from wearing body 
armor. Could you just describe the work of the Survivors' Club, 
how they document these saves? You pretty dramatically 
demonstrated how some have been documented. And then talk to 
us, if you would, about why innovative technology, current 
technology in vests is important as criminals continue to 
develop their means of assaulting law enforcement officers?
    Chief Zakhary. Yes, sir, I would be honored to do so. The 
IACP/DuPont Kevlar Survivors' Club, I had the privilege and 
honor of being the Chair of the State Association of Chiefs of 
Police, known to us as ``SACOP,'' which oversees and partners 
with IACP as one of the many IACP programs into the DuPont 
Survivors' Club. And what happens there is we highlight--at a 
very nice luncheon, we have all the State Police Chiefs there, 
all the State executive directors there, and we highlight at a 
luncheon the stories of the heroic acts of police officers who 
can walk the streets today because they wore their bulletproof 
vests. As was demonstrated by your officers in Delaware, we 
highlight those stories, and we have a police officer--not an 
administrator, we have a police officer get up and say, ``This 
is my story,'' as we heard the officer say. ``This is what 
happened. I was wearing my vest. Here is where I was hit. The 
vest did exactly what it should. The bullet was embedded in the 
vest, not in my chest, not in my stomach.''
    And so, yes, sir, that is--I mean, I can go into details, 
but I know time is sensitive.
    The second question on the technology, if I may, is the 
NIJ--let me reiterate, criminals do not respect city limit 
signs, county borders, State borders, or global borders. As I 
have traveled the world representing IACP, criminals are 
criminals. They could care less where they find their prey as 
long as they can find it. And it is very comforting to know 
that the Federal Government under an NIJ standard is 
independent, and when I buy a vest from my officers, I know it 
has got that independent NIJ stamp, not that of a vendor or a 
special interest group, an independent laboratory that looks 
out for one thing, that is, the safety and the wear and tear on 
the vest. I have been to their lab, and it is amazing.
    Senator Coons. Thank you. Thank you so much for your 
testimony.
    Chairman Leahy [presiding]. We are going to have votes. A 
roll call vote just started. I will skip the vote and stay 
here. Go ahead.
    Senator Whitehouse. I will be very brief. I just first 
wanted to note how fortunate we are that that Vermont criminal 
those years ago was a terrible shot, because Chairman Leahy has 
for years and at times virtually singlehandedly made sure that 
this program continued. And with all of the lives saved as a 
result of those bulletproof vests, it is one of a number of 
very remarkable achievements.
    It is also a reminder, as Senator Coons pointed out, during 
this Police Memorial Week of the willingness of our men and 
women in law enforcement to go in harm's way for the rest of 
us, and it is a very tangible signal of that, and it is 
something that I think is worth our pride as your constituents 
and those who you serve and protect. So we are very proud of 
you.
    I would argue also that knowing that there is a solid 
partnership behind this program, knowing that there are Federal 
resources that are going to continue to flow through this 
program, helps build a market for these safety devices, helps 
the industry know that they can invest in making lighter, in 
making more secure, in making more comfortable and portable 
body armor and serve our law enforcement officers better 
because they will have the reliability of that market in the 
years ahead. And I think that is an important goal as well.
    The last point I would make is--well, I will make it in the 
form of a question. What is the alternative? What is the 
alternative to the body armor in an active shooter situation? 
Chief?
    Chief Zakhary. As far as no vests? Well, the alternative is 
we go into the situation with no vest and we are sitting 
targets.
    Senator Whitehouse. Pretty simple, isn't it?
    Chief Zakhary. Yes, sir.
    Senator Whitehouse. Officer Carrizales?
    Officer Carrizales. Death.
    Senator Whitehouse. Yes. Well, it was a very disappointing 
moment--I think the Chairman was powerful on the floor in 
support of this, and it was a discouraging moment when one of 
our body chose to interrupt a program like this that is a 
partnership that saves lives, that helps develop an important 
American technology for our police officers, and all over--
well, ideology, for want of a better word. Thank you. Thank you 
both for your service and for being here.
    Chairman Leahy. And I should note that when I stepped out, 
that was to take a phone call from the Majority Leader, who is 
going to try again to get the other side to release their hold 
so that we can get this Bulletproof Vest Partnership 
reauthorized.
    Senator Klobuchar, another former prosecutor.
    Senator Klobuchar. Thank you so much, Mr. Chairman. Thank 
you for your work and this important hearing. I was listening 
to Senator Whitehouse apologizing for one of our body stopping 
the bill. I was thinking one of our body stopped you from 
protecting your body. And so I am hoping that they will see the 
light, and maybe they need to meet both of you and hear your 
stories. And thank you, Officer Carrizales. Thanks to the 
bulletproof vest and your bravery, you have your life, your 
husband has his wife, your kids have their mother, and the 
people of your town in Texas have you as a role model and a 
prosecutor.
    Thank you also, Chief, for the day-to-day work that you do, 
like so many chiefs and officers across this country. And I 
appreciated that the Chairman asked the question about women 
wearing the vests. I have heard these issues before. I have a 
lot of friends in my former job. I just got together with all 
the women in leadership in the police world in Minnesota for 
dinner. We had a lot of fun, I will tell you. We do that about 
every other year and remembering old times, but I know some of 
them have been helped by bulletproof vests.
    And, in fact, just a few weeks ago, Deputy Nathan Warren in 
Norman County in northwest Minnesota was shot during a routine 
traffic stop and survived because he was wearing a bulletproof 
vest. And the officer's injuries were non-life-threatening. He 
was able to return fire as the suspect fled, and law 
enforcement found the suspect a few hours later. The 
bulletproof vest saved his life just as it saved your life.
    I wanted to ask you what you thought we could do to better 
improve the program. I would guess your answer is going to be 
funding, but maybe I will start with you, Chief.
    Chief Zakhary. Thank you. I think, of course, it is 
funding. If the program is carried out as it has been, I think 
it is a great program. What I would ask that you not do is not 
make it so complicated. The program has worked under your 
leadership, sir, and if we can get it reauthorized, I think we 
would be very pleased, and I feel comfortable speaking for 
almost all 18,000 law enforcement agencies across this great 
country.
    Senator Klobuchar. Okay. Well, maybe that is a good way to 
end. I can put my other questions on the record.
    Chairman Leahy. That was a good question. We have time if 
you have more questions, but, Chief, if I can just say, I also 
like the fact when you talked about having the vests, making it 
clear where they come from and how they are designed, and have, 
you know, the stamp of approval, or what people would probably 
call the ``Good Housekeeping Stamp of Approval.'' Rather than 
just somebody thinking this is a great way to make money and do 
a fly by-night type of program, which saves nobody. But, 
Senator Klobuchar, go ahead if you have----
    Senator Klobuchar. Well, one of the things I noticed, the 
manufacturers say there is a 5-year warranty on the vests, and 
in your experience, how long do you think these vests last? And 
do people wear them after the warranty expires?
    Chief Zakhary. We have had this debate with the 
manufacturer. They only will warranty them for 5 years. I think 
the vests could last a lot longer. But I am not the scientists, 
I am not the expert. They do it all on probabilities, and there 
is always that one probability and that one small chance.
    I think what is really important is to try to get the life 
of the vests up to perhaps 7, 8 years. I think that would even 
be more effective and perhaps--we have talked to NIJ about the 
extension of that through DuPont and the Kevlar material. What 
I really want to reiterate, though, is we must have the NIJ 
stamp, because what we do not want is vests made globally that 
look good, feel good, but are paperweights. They must be 
fitted. They must have that--if I am going to purchase a vest 
using taxpayers' dollars, I have to have the assurance that if 
you are going to give us the funding that the Senator and you 
and everybody has fought for, that it has got to be a product 
that is going to stop the bullet it is designed to stop. An NIJ 
stamp is imperative.
    Senator Klobuchar. Exactly. And we understand that.
    I also want to let you know that I am leading a COPS 
reauthorization bill that we are working very hard to get done, 
and we have a bipartisan companion bill in the House, and we 
think that is also very important. And the Chairman has long 
supported those efforts with Byrne grants and everything else. 
We hope to up the funding this year as we look at some of the 
sentencing changes and other things that we still will be 
working out on the floor. I think part of that should be more 
funding for COPS.
    Chief Zakhary. Thank you.
    Senator Klobuchar. Thanks very much.
    Chairman Leahy. With that, the vote has started, so I thank 
you both. Officer, my son would criticize me if I did not 
remember to say, ``Semper Fi.''
    Officer Carrizales. Semper Fi.
    Chairman Leahy. We stand in recess.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
